No. 20-255
IN THE

Supreme Court of the United States
MAHANOY AREA SCHOOL DISTRICT,
v.

Petitioner,

B.L., A MINOR, BY AND THROUGH HER FATHER,
LAWRENCE LEVY, AND HER MOTHER, BETTY LOU LEVY,
Respondents.
On Writ of Certiorari to the United States
Court of Appeals for the Third Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, William M. Jay, counsel of
record and a member of the Bar of this Court, certify that the Brief for the
Independent Women’s Law Center as Amicus Curiae Supporting Respondents
contains 6,117 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

March 31, 2021
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N Street, NW
Washington, DC 20036
wjay@goodwinlaw.com
(202) 346-4190
Counsel of Record for Amicus Curiae

